HHS/OIG-Audit--"Review of Project Officers' Management of Contracts, (A-12-93-00011)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Project Officers' Management of Contracts," (A-12-93-00011)
October 20, 1993
Complete
Text of Report is available in PDF format (1.31 mb). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report addresses project officer management of five contracts for
Fiscal Year 1992 in the Administration for Children and Families (ACF). The
report shows that ACF could improve contract management by: implementing controls
to ensure that project officers complete required training; enforcing the requirements
to document all phases of the planning process; and requiring project officers
to monitor contract deliverables by maintaining a schedule of deliverable due
dates and deliverable files.